OIG Investigative Reports, Tampa, FL., April 26 31, 2012 - Former Assistant Superintendent of Polk County School Board Sentenced for Bribery Conspiracy
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT OF FLORIDA
NEWS
Former Assistant Superintendent of Polk County School Board Sentenced for Bribery Conspiracy
FOR IMMEDIATE RELEASE
April 26, 2012
Tampa, Florida - U.S. Attorney Robert E. O'Neill announces that U.S. District Judge Richard A. Lazzara today sentenced Robert L. Williams (68, Winter Haven) to two years in federal prison for conspiracy to commit bribery. He pled guilty to the conspiracy charge in March 2011.
According to court documents, from December 2004 through at least January 2009, the School Board of Polk County administered the activities of the school district, including the construction of schools, through a school superintendent and a number of assistant superintendents. Williams was the Assistant Superintendent of Facilities and Operations. He was an influential official in the procedure for awarding school construction contracts and he was in a position to influence and to make recommendations in that process.
According to the plea agreement, Williams exercised his authority as an agent of the Polk County School Board to benefit alleged conspirators. During the conspiracy, alleged conspirators provided Williams with numerous things of value, including vacation trips, fishing and sporting excursions, airline travel, and construction and remodeling work at Williams' residence.
This case was investigated by Federal Bureau of Investigation, the Florida Department of Law Enforcement, and the Department of Education, Office of Inspector General. It was prosecuted by Assistant United States Attorney Robert Monk and Antitrust Trial Attorney Bill Dillon.
Top
Printable view
Last Modified: 05/02/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov